TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Internal Revenue Service Is Not
                    Adequately Protecting Taxpayer Data on
                     Laptop Computers and Other Portable
                           Electronic Media Devices



                                          March 23, 2007

                              Reference Number: 2007-20-048




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 23, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Is Not Adequately
                             Protecting Taxpayer Data on Laptop Computers and Other Portable
                             Electronic Media Devices (Audit # 200620001)

 This report presents the results of our review to determine whether the Internal Revenue
 Service (IRS) is adequately protecting sensitive data on laptop computers and portable electronic
 media devices. The audit focused on the security of laptop computers and the encryption of
 sensitive data maintained on laptop computers. We also evaluated the storage methods for
 backup tapes at non-IRS offsite facilities.

 Impact on the Taxpayer
 The IRS annually processes more than 220 million tax returns containing personal financial
 information and personally identifiable information such as Social Security Numbers. We found
 hundreds of IRS laptop computers and other computer devices had been lost or stolen,
 employees were not properly encrypting data on the computer devices, and password controls
 over laptop computers were not adequate. As a result, it is likely that sensitive data for a
 significant number of taxpayers have been unnecessarily exposed to potential identity theft
 and/or other fraudulent schemes.

 Synopsis
 IRS employees reported the loss or theft of at least 490 computers between January 2, 2003, and
 June 13, 2006. No organization is impervious to theft or loss of computers, especially an
 organization as large as the IRS with approximately 100,000 employees. Many incidents cannot
 be prevented, but employees can reduce the risk by taking precautions. For example, because a
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices


large number of laptop computers were stolen from vehicles and employees’ residences,
employees may not have secured their laptop computers in the trunks of their vehicles or locked
their laptop computers at home. Further, because 111 incidents occurred within IRS facilities,
employees were likely not storing their laptop computers in lockable cabinets while the
employees were away from the office.
IRS procedures require employees to report lost or stolen computers to the IRS Computer
Security Incident Response Center (CSIRC) and to the Treasury Inspector General for Tax
Administration (TIGTA) Office of Investigations. Employees reported the loss or theft of at
least 490 computers and other sensitive data in 387 separate incidents. Employees reported
296 (76 percent) of the incidents to the TIGTA Office of Investigations but not to the CSIRC. In
addition, employees reported 91 of the incidents to the CSIRC; however, 49 of these were not
reported to the TIGTA Office of Investigations. Coordination was inadequate between the
CSIRC and the TIGTA Office of Investigations to identify the full scope of the losses.
We found limited definitive information on the lost or stolen computers, such as the number of
taxpayers affected, when we conducted our review. However, we conducted a separate test on
100 laptop computers currently in use by employees and determined 44 laptop computers
contained unencrypted sensitive data, including taxpayer data and employee personnel data. As
a result, we believe it is very likely a large number of the lost or stolen IRS computers contained
similar unencrypted data. Employees did not follow encryption procedures because they were
either unaware of security requirements, did so for their own convenience, or did not know their
own personal data were considered sensitive. We also found other computer devices, such as
flash drives, CDs, and DVDs, on which sensitive data were not always encrypted. We reported
similar findings in July 2003, but the IRS had not taken adequate corrective actions.
In addition to encryption solutions to protect sensitive data on its laptop computers, the IRS
requires controls, such as usernames and passwords, to restrict access to laptop computers.
However, 15 of the 44 laptop computers with unencrypted sensitive data had security
weaknesses that could be exploited to bypass these security controls. We believe system
administrators either incorrectly configured the computers upon deployment or did not correctly
reset the controls after working on the computers.
We also evaluated the security of backup data stored at four offsite facilities. Backup data were
not encrypted and adequately protected at the four sites. For example, at one site, non-IRS
employees had full access to the storage area and the IRS backup media. Envelopes and boxes
with backup media were open and not resealed. At another site, one employee who retired in
March 2006 had full access rights to the non-IRS offsite facility when we visited in July 2006.
Also, inventory controls for backup media were inadequate. We attributed these weaknesses to a
lack of emphasis by management.




                                                                                                  2
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



Recommendations
We recommended the Chief, Mission Assurance and Security Services, refine incident response
procedures to ensure sufficient details are gathered regarding taxpayers potentially affected by a
loss; coordinate with business units to better quantify past incidents; periodically remind
employees of their responsibilities for protecting computer devices; consider purchasing
computer cable locks for employees’ laptop computers; and periodically publicize an explanation
of employees’ responsibilities for preventing the loss of computer equipment and taxpayer data,
the penalties for negligence over these responsibilities, and a summary of actual violation
statistics and disciplinary actions.
We recommended the Chief Information Officer include a reminder about encrypting sensitive
information in the employees’ annual certification of security awareness, including instructions
on using approved encryption software on electronic media devices, such as flash drives; require
front-line managers to periodically check their employees’ laptop computers to ensure
encryption solutions are being used by employees; consider implementing a systemic disk
encryption solution on laptop computers that does not rely on employees’ discretion as to what
data to encrypt; require system administrators to check security configurations when servicing
computers; implement procedures to encrypt backup data sent to non-IRS offsite facilities; and
ensure employees assigned to oversee these facilities conduct an annual inventory validation of
backup media and a physical security check of the offsite facility used to store the media.

Response
IRS management agreed with all of our findings and most of the recommendations. For
Recommendations 5 and 7, the IRS offered alternative corrective actions that adequately
addressed our findings. We concur with the planned corrective action for Recommendation 5
and encourage the IRS to consider publishing annual statistics on disciplinary penalties. We also
concur with the alternative corrective action for Recommendation 7 because implementation of
disk encryption no longer requires employee actions to encrypt sensitive data. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                3
                          The Internal Revenue Service Is Not Adequately Protecting
                           Taxpayer Data on Laptop Computers and Other Portable
                                          Electronic Media Devices




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Employees Reported the Loss or Theft of at Least 490 Computers
          and Other Sensitive Data in 387 Incidents From January 2003
          to June 2006 ..................................................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 6

          Physical Security Was Not Adequate Over Computer Equipment...............Page 7
                    Recommendations 3 through 5 : ........................................Page 10

          Sensitive Data Were Not Encrypted on Laptop Computers and Other
          Electronic Media...........................................................................................Page 11
                    Recommendations 6 through 8:.........................................Page 14

          Access Controls on Laptop Computers Could Be Easily Circumvented......Page 15
                    Recommendation 9:........................................................Page 17

          Backup Data Were Not Encrypted and Adequately Protected .....................Page 17
                    Recommendations 10 and 11: ...........................................Page 19


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 21
          Appendix II – Major Contributors to This Report ........................................Page 24
          Appendix III – Report Distribution List .......................................................Page 25
          Appendix IV – Outcome Measure ................................................................Page 26
          Appendix V – Office of Management and Budget Memoranda...................Page 27
          Appendix VI – Management’s Response to the Draft Report ......................Page 28
        The Internal Revenue Service Is Not Adequately Protecting
         Taxpayer Data on Laptop Computers and Other Portable
                        Electronic Media Devices




                     Abbreviations

CSIRC          Computer Security Incident Response Center
IRS            Internal Revenue Service
TIGTA          Treasury Inspector General for Tax Administration
                       The Internal Revenue Service Is Not Adequately Protecting
                        Taxpayer Data on Laptop Computers and Other Portable
                                       Electronic Media Devices




                                              Background

The Internal Revenue Service (IRS) annually processes more than 220 million tax returns
containing personal financial information and personally identifiable information such as Social
Security Numbers. If lost or stolen, taxpayer data can be used for identity theft and/or other
fraudulent purposes. Identity theft refers to a crime in which someone wrongfully obtains and
uses another person’s personal data in some way that involves fraud or deception, typically for
financial or economic gain. According to the Federal Bureau of Investigation, identity theft is
one of the fastest growing white collar crimes in the United States. The Department of
Commerce estimates that more than 50 million identities were compromised in 2005.
Recently, safeguarding personally identifiable information has received much publicity. For
example:
    •    In September 2006, the Department of Commerce reported 1,138 lost, stolen, or missing
         laptop computers since 2001. Of these laptop computers, 249 contained sensitive
         information that identified individuals.
    •    In May 2006, the Department of Veterans Affairs reported a stolen external hard drive.
         According to an audit performed by the Department of Veterans Affairs Office of
         Inspector General, the drive contained personal information on approximately
         26 million veterans and United States military personnel. The data stolen were primarily
         limited to individuals’ names, dates of birth, and Social Security Numbers.
    •    In April 2006, a data storage company announced losing a container of backup tapes that
         included personal information belonging to as many as 17,000 current and former
         employees of the Long Island Railroad. The IRS uses the same storage company to store
         backup data for some Area Offices.1
    •    Also in April 2006, the news media reported that flash drives2 previously owned by the
         Department of Defense were stolen from a military base and sold in an open market in a
         foreign country. The flash drives contained potentially sensitive military intelligence
         data, including the names, photographs, and telephone numbers of spies/informants
         working for the United States military. According to the news media, the documents
         appeared to be authentic, but the accuracy of the information could not be independently
         verified.

1
  Area Offices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
2
  A flash drive is an external data storage device that plugs into the computer and emulates a small disk drive. It
allows data to be easily transferred from one computer to another.
                                                                                                               Page 1
                       The Internal Revenue Service Is Not Adequately Protecting
                        Taxpayer Data on Laptop Computers and Other Portable
                                       Electronic Media Devices



Most IRS employees use taxpayer information to carry out their responsibilities within the
protection of IRS facilities; however, some employees are allowed to take electronic taxpayer
data outside of the office for business purposes. For example, revenue agents may take
electronic taxpayer records with them when conducting onsite visits to business taxpayers. In
addition, as of July 2006, more than 25,000 IRS employees had the ability to access the IRS
network from outside of IRS facilities. Overall, the IRS has over 47,000 portable laptop
computers assigned to its employees.
Because taxpayer data are allowed to be taken outside of IRS facilities, additional security
controls are required, such as:
    •    Physically protecting computer devices – Employees in possession of computer devices
         must adhere to specific security policies and handling procedures to minimize the chance
         of loss or theft of the device. For example, when transporting a laptop computer in a
         vehicle, an employee should store the computer in the vehicle’s trunk or a place that is
         not visible from outside of the vehicle.
    •    Encrypting3 taxpayer data on computer devices – Even if a computer device is lost or
         stolen, the data can be protected if the data are encrypted. Encryption ensures no one
         other than the authorized user can access and view the data maintained on the computer
         device.
    •    Using software controls to limit access to computers – If a computer is lost or stolen, the
         data can still be protected to some degree by requiring the user to enter a valid username
         and corresponding password soon after starting up the computer. This control can
         sometimes be bypassed if the computer is not properly configured.
    •    Reporting incidents – Any employee who loses a computer must follow specific reporting
         instructions to ensure the proper authorities are notified. Actions should then be taken to
         disable user accounts and to look for clues, in case an attempt is made to use the
         computer to access the IRS network.
In addition, data that are backed up and stored offsite so operations can be restored in the event
of a disaster may also be at risk.4 If the backup location is not within the organization’s control
(e.g., a contractor’s site), security policies and procedures must be implemented to ensure the
data are protected from unauthorized access and fully accounted for.



3
  Encryption is a method to convert readable text (i.e., plaintext) to unreadable text (i.e., ciphertext) by applying
mathematical algorithms and one or more encryption keys. This is generally performed to protect the
confidentiality, integrity, and authenticity of data during storage or transmission.
4
  In the event of a disaster, it is possible that all data maintained at a facility where the disaster occurred could be
destroyed. For example, a building fire might destroy all data stored at the facility. An organization can reduce this
risk by maintaining backup data at a different facility.
                                                                                                                Page 2
                     The Internal Revenue Service Is Not Adequately Protecting
                      Taxpayer Data on Laptop Computers and Other Portable
                                     Electronic Media Devices



This review was part of our Fiscal Year 2006 Annual Audit Plan and was based on our findings
from previous years of noncompliance in safeguarding taxpayers’ data.5 We recognized the
enormous risk of having taxpayer data outside of IRS offices and the importance of establishing
policies and procedures, implementing security solutions to protect taxpayer data, educating
employees on protecting taxpayer data, and following up to ensure security solutions are working
as intended. As such, we had initiated this review prior to the Department of Veterans Affairs
theft incident. During our review, the Office of Management and Budget 6 issued several
memoranda to Federal Government agencies on the topic of safeguarding personally identifiable
information. Appendix V provides a brief explanation of these Office of Management and
Budget memoranda.
This review was performed at the Area Offices in New Carrollton, Maryland;
Laguna Niguel, California; Atlanta, Georgia; Cincinnati, Ohio; and Salt Lake City, Utah; the
Campuses7 in Fresno, California; Atlanta, Georgia; Covington, Kentucky; and Ogden, Utah; and
4 non-IRS offsite facilities located fewer than 40 miles from the 4 Area Offices (excluding the
Area Office in New Carrollton, Maryland) during the period April through December 2006. The
audit was conducted in accordance with Government Auditing Standards. Detailed information
on our audit objectives, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




5
  Secure Configurations Are Initially Established on Employee Computers, but Enhancements Could Ensure
Security Is Strengthened After Implementation (Reference Number 2006-20-031, dated February 2006) and
Security Over Computers Used in Telecommuting Needs to Be Strengthened (Reference Number 2003-20-118, dated
July 2003).
6
  The Office of Management and Budget ensures Federal Government agencies’ reports, rules, testimony, and
proposed legislation are consistent with the President’s budget and with administration policies. The Office of
Management and Budget’s role is to help improve administrative management, to develop better performance
measures and coordinating mechanisms, and to reduce any unnecessary burdens on the public.
7
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                      The Internal Revenue Service Is Not Adequately Protecting
                       Taxpayer Data on Laptop Computers and Other Portable
                                      Electronic Media Devices




                                     Results of Review

Employees Reported the Loss or Theft of at Least 490 Computers and
Other Sensitive Data in 387 Incidents From January 2003 to June 2006
On June 15, 2006, we requested that the IRS provide us information on all incidents relating to
the loss or theft of computer devices since April 2005. To fulfill our request, the IRS researched
its own records from the IRS Computer Security Incident Response Center (CSIRC)8 and
validated its information with the Treasury Inspector General for Tax Administration (TIGTA)
Office of Investigations, the law enforcement organization for internal IRS affairs. On
July 10, 2006, the Chairman of the House Committee on Government Reform sent a letter to the
Secretary, Department of the Treasury, requesting information on all incidents since
January 1, 2003, involving the loss or compromise of any sensitive personal information held by
the Department of the Treasury. As a result of our request and the House Committee on
Government Reform letter, the IRS compiled a list of 387 incidents, including the loss or theft of
at least 490 computers9 from January 2, 2003, to June 13, 2006.
IRS procedures require that, when computers are lost or stolen, employees must report the
incident to the TIGTA Office of Investigations for further investigation and possible recovery
efforts. In addition, employees must report the incident to the CSIRC for tracking actions, such
as determining if anyone has attempted to use the computers to access the IRS network and
follow-on actions such as canceling remote access accounts.
Prior to our June 2006 request for information on all incidents
                                                                              Employees did not properly
relating to the loss or theft of computer devices and/or
                                                                                 report 76 percent of all
personally identifiable information, the CSIRC was made                        incidents of lost or stolen
aware of only 91 (24 percent) of the 387 incidents. Of the                    computers and/or sensitive
91 incidents reported to the CSIRC, 42 were also reported to                     data to the IRS CSIRC.
the TIGTA Office of Investigations and 49 were not. The


8
  The CSIRC provides assistance and guidance in incident response and provides a centralized approach to incident
handling across the IRS enterprise.
9
  The 387 incidents included those for which the IRS was unable to determine the exact number of stolen or lost
computers because that information was not captured in its database of incidents. Consequently, the number of lost
or stolen computers for these incidents was counted as “1+.” On November 15, 2006, radio station WTOP reported
478 IRS laptop computers were lost or stolen between 2002 and 2006. The radio station had obtained the
information from the IRS through the Freedom of Information Act (5 U.S.C.A Section 552 (West Supp. 2003)). We
attribute the difference in our results to the nature of information that can be released under the Freedom of
Information Act and to different time periods covered by our audit and the station WTOP request.
                                                                                                          Page 4
                  The Internal Revenue Service Is Not Adequately Protecting
                   Taxpayer Data on Laptop Computers and Other Portable
                                  Electronic Media Devices



TIGTA Office of Investigations was aware of 296 (76 percent) of the 387 incidents, none of
which had been reported to the CSIRC.
When computer equipment is lost or stolen, the primary concern is the data contained on the
computer. In conjunction with the CSIRC, we evaluated all 387 incidents to determine how
many involved the loss or compromise of personally
identifiable information and to identify the impact to
taxpayers.                                                 We were unable to determine
                                                            the full impact to the taxpayers
We determined it was unlikely that 176 (45 percent) of          for many of the incidents
the 387 incidents involved taxpayer data. For the             involving the loss or theft of
                                                              computer equipment and/or
remaining 211 incidents, we analyzed the incident                     taxpayer data.
writeups as of June 2006 and found 126 contained
sufficient details to show that personal information for at
least 2,359 individuals was involved with the incidents. We were unable to identify the nature of
the data loss and the identities of taxpayers whose information may have been lost for the other
85 of 211 incidents due to lack of details in the incident writeups.
We believe IRS employees who reported incidents to the TIGTA Office of Investigations did not
extend the reporting process to their own internal computer security organization. We surmised
that employees were mainly concerned with the reporting of the incidents to law enforcement
authorities and the investigation and recovery of the lost or stolen computer equipment.
Managers of these employees and information technology support functions, who were involved
with replacing computer equipment for the employees, did not ensure the CSIRC was notified of
the incidents.
Prior to the Department of Veterans Affairs incident in May 2006, the CSIRC had not placed
sufficient emphasis on identifying actual taxpayers potentially affected by lost or stolen
computers. The TIGTA Office of Investigations did investigate many of these incidents, but its
approach was from a criminal focus (e.g., identifying the perpetrator, recovering the stolen
equipment). In addition, coordination between the CSIRC and the TIGTA Office of
Investigations was inadequate to identify the full scope of the losses.
On July 7, 2006, the Chief, Mission Assurance and Security Services, issued a memorandum
regarding Updated Guidance for IRS Computer Security Incident Reporting to all IRS heads of
office. This memorandum reemphasized reporting requirements and stated that all computer
security incidents shall be reported to the CSIRC and to front-line managers. In addition, any
incident involving physical loss of equipment that could result in unauthorized access to IRS
systems or information must also be reported to the TIGTA Office of Investigations. Prior to
issuance of this memorandum, the IRS Commissioner had issued an email to all IRS managers,
reminding them to safeguard personally identifiable information and to immediately report any
security incidents to the CSIRC. The email message also stated that, for cyber-security incidents
involving access to or disclosure of taxpayer data or possible incidents of identity theft,

                                                                                           Page 5
                       The Internal Revenue Service Is Not Adequately Protecting
                        Taxpayer Data on Laptop Computers and Other Portable
                                       Electronic Media Devices



managers should work with the CSIRC to promptly notify the TIGTA Office of Investigations.
As a final measure to ensure total coordination, the IRS is in the process of entering into an
agreement with the TIGTA Office of Investigations to share all incidents relating to the loss or
theft of information technology assets.
The above corrective actions taken by the IRS during our audit should sufficiently address the
causes of the lack of full reporting by employees. However, on July 19, 2006, the Chairman of
the House Committee on Government Reform introduced legislation to require Federal
Government agencies to make public notifications in the event of data breaches involving
sensitive information. The legislation, which would amend the Federal Information Security
Management Act,10 directs the Office of Management and Budget to establish policies,
procedures, and standards for agencies to follow if sensitive personal information is lost or
stolen. In anticipation of this legislation, we are making the following recommendations.

Recommendations
The Chief, Mission Assurance and Security Services, should:
Recommendation 1: Refine CSIRC reporting and handling procedures to ensure sufficient
details are gathered and recorded in the incident writeups regarding taxpayers potentially
affected by a loss and the nature of the lost data.
         Management’s Response: The IRS agreed with this recommendation. The Mission
         Assurance and Security Services organization has refined the incident handling and
         reporting procedures to ensure sufficient details are gathered and recorded regarding
         taxpayers potentially affected by the loss and the nature of the lost data. These
         refinements include the creation of a Personally Identifiable Information Incidence
         Working Group, which has developed an incident management policy; a personally
         identifiable information analysis template; and a risk analysis framework. These efforts
         have resulted in modification to the CSIRC intake process and a handoff of appropriate
         incidents to the core response group for disposition.
Recommendation 2: Coordinate with the business units that have reported lost or stolen
computer devices since 2003 and quantify the impact to taxpayers in terms of how many
taxpayers were affected by the incidents and what personally identifiable information was lost.
         Management’s Response: The IRS agreed with this recommendation. Between July
         and September 2006, the Mission Assurance and Security Services organization launched
         two efforts to refine CSIRC reporting and handling procedures. First, for each of the

10
  This Act is part of the E Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002). The
Federal Information Security Management Act includes protecting information and information systems from
unauthorized access, use, disclosure, or modification, including controls for disclosure and confidentiality to protect
personal privacy.
                                                                                                               Page 6
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



       business units that have reported lost or stolen computer devices since 2003, the Mission
       Assurance and Security Services organization has requested a quantification of the
       impact to taxpayers and a determination of the lost data. In addition, the CSIRC made
       modifications to reporting and handling procedures to capture details regarding the types
       of data elements, the encryption status of each affected asset, and the number of
       potentially affected individuals.
       Second, the Office of Privacy and Information Protection established a cross-functional
       working group to ensure the appropriate focus on details involving the data and
       encryption status of each incident. At the same time, the group ensured the reporting and
       handling of incidents do not violate privacy requirements. The membership of the
       working group included subject-matter experts from across the IRS (e.g., the Office of
       Disclosure, the Office of Chief Counsel, the Office of Labor Relations, the CSIRC, and
       the Office of Privacy and Information Protection).

Physical Security Was Not Adequate Over Computer Equipment
No organization is impervious to theft or loss of computers, especially an organization as large as
the IRS with approximately 100,000 employees and over 47,000 laptop computers assigned to its
employees. To minimize the risk of theft or loss of computer equipment, the IRS has established
basic computer security procedures for its employees. For example, employees are responsible
for ensuring security over their laptop computers when not in their possession by storing them in
a locked container or physically securing them to immovable furniture with a cable lock when
not in use. When in transit, on business trips, or commuting to the workplace, employees shall
secure the laptop computer in a vehicle trunk. When traveling by plane, bus, or train, employees
shall retain possession of the laptop computer under the seat in front of the employee rather than
in an overhead bin. Employees shall not check laptop computers with luggage at airports, leave
laptop computers unattended in public places, leave laptop computers in plain view when leaving
the hotel room, or leave laptop computers at home where sensitive information can be easily
seen.
Despite these security requirements, since 2003 the IRS has been averaging nine incidents per
month relating to the theft or loss of computer equipment and/or taxpayer data. Many incidents
cannot be prevented; however, because most losses of computer devices and data occur outside
of IRS facilities, employees must be particularly cognizant of the risks. The total number of
incidents has increased each year, as illustrated in Figure 1.




                                                                                            Page 7
                         The Internal Revenue Service Is Not Adequately Protecting
                          Taxpayer Data on Laptop Computers and Other Portable
                                         Electronic Media Devices



                  Figure 1: Number of Incidents of Theft or Loss of Computer
                        Equipment and/or Taxpayer Data (2003 – 2006)


                       200

                       150

                       100                                      162
                                                     134                             Number of Incidents
                                            96
                        50       76

                         0
                              2003       2004      2005       2006
                                                           (projected)


                     Source: TIGTA analysis and projection based on CSIRC and
                     TIGTA Office of Investigations data.

The projected volume of incidents for 2006 was based on doubling the known volume of
81 incidents from January to June 2006. We believe the recent attention to and current
reemphasis on employee responsibility over safeguarding computer equipment and taxpayer data
should raise the level of employee awareness, thus reducing the number of preventable incidents.
However, understanding the nature and circumstances of the 387 reported incidents may provide
insight into how to prevent future losses from occurring. We categorized the 387 incidents by
item type, as shown in Figure 2.
                  Figure 2: Number of Incidents of Theft or Loss of Computer
                  Equipment and/or Taxpayer Data Categorized by Item Type
                                Item Type            Number of        Actual Number of
                                                     Incidents11             Items
                      Laptop Computers                   345                   477
                      Desktop Computers                  10                     13
                      Peripherals                        30                     36
                      ID Badges or Commissions           26                     26
                      Hardcopy Documents                 22                    171
                      Tapes or Portable Drives            10                    11
                      Blackberrys or Cell Phones          6                     6
                      Other or Unknown Items              8                    69
                     Source: TIGTA analysis of CSIRC and TIGTA Office of Investigations data.

As Figure 2 illustrates, laptop computers overwhelmingly represent the largest category of lost or
stolen items. Because of the portability and monetary value of laptop computers, they tend to be

11
     Some incidents involved multiple types of items. Therefore, the number of incidents does not total 387 incidents.
                                                                                                              Page 8
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



an attractive target for thieves. The lack of physical security provided to these and other
computer devices increased the risk that taxpayer data could be lost or stolen and used for
fraudulent purposes. For further perspective, we segregated the incidents by the location where
the theft or loss occurred, as presented in Figure 3.
                               Figure 3: Location of Theft or Loss
                                                      Number of     Percentage (Based
          Location of Theft/Loss                      Incidents      on 387 incidents)
          IRS Facility                                   111                29%
          Vehicle                                         89                23%
          Volunteer Income Tax Assistance Site           53                 14%
          Residence                                       35                 9%
          Hotel                                          11                  3%
          Airport                                         7                  2%
          Travel Status (specific location not known)      4                 1%
          Public Transportation (planes, trains, buses)    4                 1%
          Taxpayer Site                                    4                 1%
          Freight Company                                  4                 1%
          Unspecified/Unknown Location                    65                17%
         Source: TIGTA analysis of CSIRC and TIGTA Office of Investigation data.

Figure 3 illustrates areas where the IRS can focus attention when providing additional guidance
and assistance to its employees. For example, because 111 incidents occurred within IRS
facilities, employees were likely not storing their laptop computers in lockable cabinets while the
employees were away from the office. Further, because a large number of laptop computers
were stolen from vehicles and employees’ residences, employees may not have secured their
laptop computers in the trunks of their vehicles or locked their laptop computers at home.
Sufficient documentation was not available to evaluate the circumstances surrounding most of
the 387 incidents. However, we determined that at least 24 of the incidents could have been
prevented if employees had followed IRS policies and procedures.
   •   Fourteen incidents involved employees storing the laptop computers in unlocked vehicles
       or in the front seat or back seat of their vehicles, with the computers being visible through
       the windows, or employees forgetting to place computers into their vehicles.
   •   Seven incidents involved employees leaving computers on buses and trains and at
       airports.
   •   Three incidents occurred because employees checked their computers at an airport.
The 24 incidents involved personally identifiable information for 480 individuals. The loss of
these records, which consisted of taxpayer and employee information, also could have been
prevented had the incidents not occurred.

                                                                                             Page 9
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



We obtained information on whether disciplinary actions were taken against the responsible
employees for 18 of the 24 incidents and found that only 1 employee involved in the 18 incidents
was disciplined. The IRS’ own guide for penalty determinations indicates the loss of Federal
Government property may result in discipline ranging from a written reprimand to a 14-day
suspension for a first offense. We believe disciplining employees for security violations
resulting from negligence or carelessness could deter others from neglecting their responsibilities
for protecting Federal Government property.

Recommendations
The Chief, Mission Assurance and Security Services, should:
Recommendation 3: Provide employees periodic reminders of their responsibilities for
protecting computer devices, which, at a minimum, should include storing laptop computers in
locking cabinets in the office, storing laptop computers in the trunks of vehicles, and securing
laptop computers at home or alternate work locations.
       Management’s Response: The IRS agreed with this recommendation. It has
       established a strategic communications team to lead an integrated effort reminding
       employees of their responsibilities regarding the protection of personally identifiable
       information and assets, including proper storage of laptop computers.
       Between June 2006 and December 2006, the strategic communications team issued
       several targeted messages to all IRS employees. Employees have also received periodic
       reminders of their responsibilities for protecting computing devices. In addition, this
       topic was included on the Information Protection Mandatory Awareness briefing in 2006.
       This important message will remain a focal point for the strategic communications team
       and is a standard part of ongoing communications activities.
Recommendation 4: Consider purchasing computer cable locks for employees to provide an
additional layer of security at their residence, hotel, or taxpayer site. Instructions should be
provided on how to use the locks and the best method to secure the laptop computer to an
immobile or heavy object.
       Management’s Response: The IRS agreed with this recommendation. It purchased
       combination cable locks for all laptop computers on August 31, 2006, and is distributing
       the locks to all laptop computer users. In addition, the IRS has established instructions to
       employees on how to use the lock and issued an interim policy to clarify the use of
       computer cable locks for employees.
Recommendation 5: Periodically publicize an explanation of employees’ responsibilities for
preventing the loss of computer equipment and taxpayer data, the associated disciplinary
penalties for negligence over these responsibilities, and a statistical summary of actual violations
and disciplinary actions relating to loss of computer equipment and taxpayer data.

                                                                                            Page 10
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



       Management’s Response: The IRS agreed with the intent of this recommendation
       but proposed an alternative corrective action. As a part of the mandatory annual
       information protection training, the Mission Assurance and Security Services
       organization will explain employees’ responsibilities for preventing the loss of computer
       equipment and taxpayer data and the associated disciplinary penalties for negligence over
       these responsibilities. Publicizing statistical summaries presents privacy and labor
       relations issues for the IRS; therefore, it will implement a communications plan that
       includes issuing regular announcements highlighting the disciplinary penalties, to remind
       employees to be vigilant in protecting personally identifiable information and agency
       equipment.
       Office of Audit Comment: We acknowledge that publicizing statistical summaries of
       actual violations and disciplinary actions relating to loss of computer equipment and
       taxpayer data could reveal the identity of those employees involved, particularly if the
       numbers are very low, and possibly violate privacy requirements. Therefore, we concur
       with the alternative corrective action for this recommendation and encourage the IRS to
       consider publishing annual statistics on disciplinary penalties, which should hide the
       identities of employees affected and illustrate the consequences of noncompliance to
       security policies and procedures.

Sensitive Data Were Not Encrypted on Laptop Computers and Other
Electronic Media
On June 8, 2006, the Chief, Mission Assurance and Security Services, testified before the House
Committee on Government Reform about the security of taxpayer data on computers used by the
IRS. He stated all IRS computers have tools that allow users to encrypt taxpayer data, personally
identifiable information, and sensitive information.
The IRS does require all sensitive data on laptop computers to be encrypted. As part of this
requirement, the IRS has established two encryption solutions available to employees. First,
laptop computers are configured to encrypt data residing in specific file folders on the internal
hard drive. This encryption solution is part of the computer’s operating system. Employees
need only to save sensitive files to these file folders and the computer will automatically encrypt
the files. Second, the IRS can provide employees with a separate encryption program to encrypt
files. This solution is particularly effective when encrypting files not stored on the computer’s
internal drive (e.g., files stored on CDs and DVDs).
To test the encryption of sensitive data, we selected     Sensitive data, such as taxpayer
100 laptop computers from 4 IRS Area Offices                and employee data, were not
                                                          encrypted on 44 of the 100 laptop
supporting the Wage and Investment, Small                     computers we reviewed.
Business/Self Employed, and Large and Mid-Size
Business Divisions. We found 44 of the 100 laptop

                                                                                           Page 11
                         The Internal Revenue Service Is Not Adequately Protecting
                          Taxpayer Data on Laptop Computers and Other Portable
                                         Electronic Media Devices



computers contained unencrypted sensitive data. Of these 44 laptop computers,
31 held taxpayer data and 17 held employee personnel data (4 held both taxpayer and personnel
data). The following are examples of the unencrypted sensitive data:
       •   U.S. Individual Income Tax Return (Form 1040).12
       •   U.S. Corporation Income Tax Return (Form 1120).13
       •   Audit-related information, such as case history on current audits and financial data of
           taxpayers being audited.
       •   Various IRS forms with Social Security Numbers.
       •   Employee evaluations, timesheets, and applications for reassignment.
We believe it is very likely a large number of the lost or stolen computers presented in the
previous findings contained similar unencrypted data. The IRS had defined directories on the
hard drives where sensitive data should have been stored and encrypted. We found, however,
that employees frequently placed sensitive data outside of those directories, either because the
employees were not aware of the security requirements or for their own convenience. In
addition, we found employees did not know that their own personal data were considered
sensitive.
In addition to the unencrypted sensitive data on laptop computers, we found other computer
devices on which sensitive data were not always encrypted, contrary to IRS procedures. Of the
100 employees in our sample, 20 had small portable flash drives. Fifteen employees informed us
that the IRS had purchased flash drives for them, while five employees had purchased their own
flash drives although the IRS prohibits the use of privately owned portable electronic devices to
process, store, or transmit sensitive IRS information.
       •   For the 15 employees in possession of IRS-purchased flash drives, we found employees
           either stored sensitive unencrypted data on the flash drives, used an IRS-approved
           encryption solution, did not store sensitive data, or did not have the opportunity to use the
           flash drives.
       •   For the five employees in possession of self-purchased flash drives, we found employees
           either stored sensitive unencrypted data, had a system administrator install an encryption
           program on the flash drive, or did not store sensitive data on the devices.
In addition, 54 of the 100 employees were using various other computer media (e.g., floppy
disks, DVDs, and CDs) to store taxpayer data without encryption. For example, employees were



12
     Form 1040 is the IRS form used by individuals to report and file Federal income taxes.
13
     Form 1120 is the IRS form used by corporations to report and file Federal income taxes.
                                                                                                Page 12
                    The Internal Revenue Service Is Not Adequately Protecting
                     Taxpayer Data on Laptop Computers and Other Portable
                                    Electronic Media Devices



using unencrypted CDs to back up taxpayer case information, to store grand jury information,
and to retain tax information provided by taxpayers.
During our site visits, various IRS organizations distributed documents regarding the need to
encrypt taxpayer data. For example, on June 2, 2006, the Commissioner, Small
Business/Self-Employed Division, issued an email to all of his managers and employees
reminding them of the IRS security policy for storing files that contain taxpayer information or
other sensitive and private information on laptop computers or other portable media storage
devices. The email also discussed the process the managers must follow to ensure all employees
in their groups understand their responsibilities to protect sensitive data. In addition, several
employees informed us they had “cleaned up” the files on their computers prior to our visits.
Even with the issuance of this email and the publicity of our review, we did not see improvement
from our initial site visit to our last site visit.
Media storage devices, especially flash drives, have become popular and affordable over the last
few years. Their small size and portability increase the likelihood that they could be lost or
stolen. By not encrypting the data on laptop computers and media devices, the IRS is
unnecessarily exposing taxpayer data to unauthorized access, theft, or loss.
In July 2003, we reported14 that sensitive files were not adequately encrypted on IRS laptop
computers. In that report, we made the following recommendations to the IRS that pertained to
encrypting sensitive data:
     •   Periodically remind telecommuting employees to store and encrypt sensitive information
         in secure locations on their laptop computers.
     •   Develop guidance to assist functional managers in determining whether sensitive data are
         being stored in unencrypted areas on their employees’ laptop computers.
     •   Require front-line managers to periodically check their employees’ laptop computers to
         ensure sensitive data are being properly stored and encrypted.
The IRS only partially agreed with the third recommendation, stating it agreed that employee
compliance with encryption steps for safeguarding data on laptop computers is important.
However, the IRS believed that, to ensure enterprise-wide consistency, the review of laptop
computers should be conducted by the IRS security professionals rather than front-line
managers. To ensure enterprise-wide consistency for reviewing this issue, the IRS agreed to
develop sampling criteria, develop review methodology, and conduct followup actions from
review results.
In an Office of Audit Comment to management’s response to the July 2003 report, we replied
that we did not believe merely asking the security professionals to review a sample of laptop

14
  Security Over Computers Used in Telecommuting Needs to Be Strengthened (Reference Number 2003-20-118,
dated July 2003).
                                                                                                  Page 13
                  The Internal Revenue Service Is Not Adequately Protecting
                   Taxpayer Data on Laptop Computers and Other Portable
                                  Electronic Media Devices



computers would correct the issue. While we recognized the many demands on front-line
managers, periodically reviewing employees’ laptop computers to ensure proper encryption
should be considered an integral responsibility for managers and should not be difficult or
time consuming.
The IRS reported it had completed the corrective action to close the first two recommendations
and postponed corrective action on the third recommendation until January 2008. However, we
were unable to find any supporting documentation for those closed actions, and it appears the
IRS may not have completed the corrective actions as reported. As a result, these issues persist
today.

Recommendations
The Chief Information Officer should:
Recommendation 6: Include a reminder in the annual certification of security awareness that
employees should store encrypted sensitive information in a secure location on their laptop
computers and show them how to use commercial software approved by the IRS to encrypt
sensitive data on electronic media devices, such as flash drives.
       Management’s Response: The IRS agreed with this recommendation. It has
       developed and implemented a mandatory Information Protection training module and
       encryption job aides for all employees to remind them of their responsibilities to secure
       personally identifiable information and how to use available encryption technologies.
Recommendation 7: Require front-line managers to periodically check their employees’
laptop computers to ensure encryption solutions are being used by employees and sensitive data
are encrypted properly.
       Management’s Response: The IRS agreed with the intent of this recommendation
       but proposed an alternative corrective action. The IRS mandated the implementation of
       disk encryption, which encrypts all contents on the entire hard drive of the computer, for
       all laptop computers and will issue a policy requiring all employees to annually certify
       they are using encryption tools properly to protect sensitive data.
       Office of Audit Comment: Because the implementation of disk encryption no longer
       requires employee actions to encrypt sensitive data, we concur with the alternative
       corrective action to this recommendation.
Recommendation 8: Consider implementing a systemic disk encryption solution on laptop
computers. When the entire hard drive is encrypted, employees will no longer have to determine
what data need to be encrypted. This solution will supplement the two existing encryption
solutions previously discussed.


                                                                                          Page 14
                      The Internal Revenue Service Is Not Adequately Protecting
                       Taxpayer Data on Laptop Computers and Other Portable
                                      Electronic Media Devices



         Management’s Response: The IRS agreed with this recommendation. It has
         implemented an enterprise-wide disk encryption initiative and mandated that the systemic
         disk encryption solution be installed on all laptop computers. This solution encrypts the
         entire hard drive and requires access authentication whenever a laptop has been turned
         off. If a laptop computer is lost or stolen, unauthorized users will be unable to access any
         data on the hard drive.

Access Controls on Laptop Computers Could Be Easily Circumvented
In addition to encryption solutions to protect data on its computer devices, the IRS has
implemented security controls (generally referred to as authentication controls15) to restrict who
can access the computers. All laptop computers are equipped with logon screens once the
computers are turned on. The user must enter an acceptable username and the associated
password before the computer allows the user to access its computing resources.
The password protection mechanism does not activate until the completion of the computer’s
startup process, which is referred to as the boot process. When a user presses the power button
on a computer, the computer automatically initiates the boot process, which causes the computer
to execute preset instructions located on the hard drive of the computer including the security
processes.
However, a computer’s boot process can be interrupted by pressing one of the function keys16
immediately after powering up the computer. After the boot process is interrupted, the computer
may request the user to enter the administrator boot process password. If the boot process
password is not enabled, the computer will automatically enter into the boot process settings,
where the user can make changes to the boot process like activating or disabling special controls.
For the 44 laptop computers that contained unencrypted sensitive data from the previous finding,
we found that 15 computers contained a security weakness in the boot process.
     •   Three of the 44 laptop computers were configured to boot from a location other than the
         hard drive. IRS procedures require that all computers boot only from the internal
         hard drive. When a computer is allowed to boot from the removable media drive
         (e.g., CD drive), an employee, as well as any hacker, can insert a CD into the computer
         and the computer will automatically initiate its boot process from that disk. If the CD
         contains its own operating system, the computer will bypass all security controls
         established on the computer’s operating system, including the password access control.



15
   Authentication controls are used to verify the identity of the user accessing a computer or computer network and
generally involve the use of passwords. The computer or computer system would require the input of a valid
username and corresponding passwords to proceed with accessing the computer or computer system.
16
   Each computer manufacturer designates a different function key to interrupt the boot process.
                                                                                                           Page 15
                    The Internal Revenue Service Is Not Adequately Protecting
                     Taxpayer Data on Laptop Computers and Other Portable
                                    Electronic Media Devices



     •   Six of the 44 laptop computers did not have the password enabled to protect the
         computers’ boot process. IRS procedures require that all computers have this password
         enabled so only authorized personnel, usually system administrators, can make changes
         to the boot processes. When no password is enabled to protect the boot order, anyone can
         interrupt the computer’s normal boot sequence, access the boot settings, and change the
         boot order sequence so the computer will boot from the disk drive as opposed to the
         computer’s hard drive.
     •   An additional 6 of the 44 laptop computers were configured to boot from a location other
         than the hard drive and did not have the password enabled to protect the computers’
         startup process.
We also identified one other significant computer security violation on one of the computers we
reviewed. An employee wrote user account names and passwords to the computer and various
systems to which the employee has access on a piece of paper that was taped to the laptop
computer. The IRS requires employees to safeguard passwords and keep them hidden. If this
computer was lost or stolen, the perpetrator would have access to the computer’s contents as well
as the systems listed on the piece of paper.
Each of these weaknesses could allow unauthorized persons to bypass security controls,
including passwords, to gain access to the data on the computers, particularly considering the
lack of physical security and encryption controls we previously discussed. We believe system
administrators either incorrectly set up the computers upon deployment or did not correctly reset
the boot order settings after working on the computers. System administrators are the only
individuals who should have knowledge of the boot process password.
We have previously reported findings about weak security settings.17 In July 2003 and
February 2006, we conducted a similar test to determine if laptop computers were properly
configured to protect the computers’ boot process. The test results revealed that computer
startup processes were incorrectly set, similar to what we found in this review. Each report had a
recommendation to address this problem.
     •   In the February 2006 report, we recommended the IRS hold system administrators
         accountable for ensuring the boot process password is enabled and the boot order lists
         only the hard drive as the boot initiation process. The IRS responded that there was no
         way for it to hold system administrators accountable because of the lack of workstation
         audit trails. However, the Chief Information Officer would issue a memorandum to all



17
  Secure Configurations Are Initially Established on Employee Computers, but Enhancements Could Ensure
Security Is Strengthened After Implementation (Reference Number 2006-20-031, dated February 2006) and
Security Over Computers Used in Telecommuting Needs to Be Strengthened (Reference Number 2003-20-118, dated
July 2003).
                                                                                                  Page 16
                      The Internal Revenue Service Is Not Adequately Protecting
                       Taxpayer Data on Laptop Computers and Other Portable
                                      Electronic Media Devices



         workstation administrators containing the expectations that the boot process is enabled
         and that the boot order lists only the hard drive as the boot initiation process.
     •   In the July 2003 report, we recommended the IRS remind system administrators to reset
         security settings after servicing laptop computers.
We obtained a memorandum issued on March 20, 2006, by the Chief Information Officer that
addressed the February 2006 recommendation. The IRS reported it had completed the corrective
actions to close both recommendations. However, we were unable to find any supporting
documentation for closing the July 2003 recommendation, even though it was reported as
completed. Regardless, actions taken to resolve this issue have not been effective.

Recommendation
The Chief Information Officer should:
Recommendation 9: Require system administrators, when servicing a laptop computer, to
check the boot process settings to ensure the boot process password is enabled and the boot order
lists only the hard drive as the boot initiation process. System administrators should document
completion of this task.
         Management’s Response: The IRS agreed with this recommendation. The Chief
         Information Officer will issue a memorandum that requires all workstation
         administrators, when servicing a laptop computer, to document the correct boot process
         settings via an Enterprise Workstation Check List. With the addition of enterprise-wide
         disk encryption, the boot initiation process is relegated to the hard drive by individuals
         who possess a disk encryption access profile resident on the workstation.

Backup Data Were Not Encrypted and Adequately Protected
In the event of a disaster such as a fire, it is possible that all data maintained at a facility could be
destroyed. The IRS reduces this risk by maintaining backup data at offsite facilities. Because
IRS backup data are often sensitive, controls must be in place to protect against unauthorized
access, theft, or loss. In addition, the IRS often uses vendors to store backup media, which may
increase the risk of unauthorized access.
The National Institute of Standards and Technology recommends that organizations encrypt
backup information.18 At the opening conference for this review, IRS officials informed us the
IRS does not encrypt backup media that are sent to offsite facilities. The IRS policy handbook

18
  National Institute of Standards and Technology Special Publication 800-53A, Guide for Assessing the Security
Controls in Federal Information Systems. The National Institute of Standards and Technology, under the
Department of Commerce, is responsible for developing standards and guidelines for providing adequate
information security for all Federal Government agency operations and assets.
                                                                                                        Page 17
               The Internal Revenue Service Is Not Adequately Protecting
                Taxpayer Data on Laptop Computers and Other Portable
                               Electronic Media Devices



•   Conduct an annual internal physical security review of the non-IRS offsite facility to
    determine that the site meets IRS requirements.
    Management’s Response: The IRS agreed with this recommendation. The Chief
    Information Officer will review and update the procedure to ensure oversight
    responsibilities are clearly defined for the annual inventory validation of backup media,
    for periodic checks of facilities’ access lists, and for annual physical security reviews.




                                                                                        Page 20
                       The Internal Revenue Service Is Not Adequately Protecting
                        Taxpayer Data on Laptop Computers and Other Portable
                                       Electronic Media Devices



                                                                                                    Appendix I

         Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately protecting
sensitive data on laptop computers and portable electronic media devices. The audit focused on
the security of laptop computers and the encryption1 of sensitive data maintained on laptop
computers. We also evaluated the storage methods for backup tapes at non-IRS offsite facilities.
To accomplish our objectives, we:
I.       Evaluated the security policies and procedures established to protect sensitive data on
         laptop computers and portable electronic storage media, methods of cleansing sensitive
         data from electronic media, and storage method for backup tapes at non-IRS offsite
         facilities.
         A. Evaluated IRS security policies, procedures, and guidelines related to laptop
            computers and electronic media.
         B. Evaluated Federal Government guidance on security policies, procedures, and
            guidelines related to laptop computers and electronic media.
         C. Interviewed officials from the Office of the Chief Information Officer regarding IRS
            security policies, procedures, and guidelines related to laptop computers and
            electronic media.
II.      Determined the effectiveness of procedures and controls implemented to protect sensitive
         data on laptop computers and portable electronic media.
         A. Analyzed the report of 387 incidents of stolen/lost IRS laptop computers and
            computer devices or lost personally identifiable information from January 2, 2003, to
            June 13, 2006, received from the CSIRC2 and the TIGTA Office of Investigations.
            For each incident, we:
             1. Identified how the incidents occurred and determined whether the laptop
                computers contained sensitive information based on the information provided.
             2. Determined whether the incidents were reported to the CSIRC and to the TIGTA
                Office of Investigations.

1
  Encryption is a method to convert readable text (i.e., plaintext) to unreadable text (i.e., ciphertext) by applying
mathematical algorithms and one or more encryption keys. This is generally performed to protect the
confidentiality, integrity, and authenticity of data during storage or transmission.
2
  The CSIRC provides assistance and guidance in incident response and provides a centralized approach to incident
handling across the IRS enterprise.
                                                                                                             Page 21
                       The Internal Revenue Service Is Not Adequately Protecting
                        Taxpayer Data on Laptop Computers and Other Portable
                                       Electronic Media Devices



         B. Selected a judgmental sample of 100 laptop computers from 4 IRS Area Offices.3
            Because the IRS maintained over 47,000 laptop computers, we obtained agreement
            from the Mission Assurance and Security Services4 and the Modernization and
            Information Technology Services5 organizations on our sample size and site selection.
            The four sites visited were the Area Offices in Laguna Niguel, California;
            Atlanta, Georgia; Salt Lake City, Utah; and Cincinnati, Ohio. We used a judgmental
            sample because we were not projecting the audit results. The first two site visits were
            announced weeks in advance; the last two site visits were unannounced due to
            concerns about giving warning to employees prior to our visits. The samples
            consisted of those employees who used taxpayer data as part of their official duties.
         C. At the four sites:
             1. Interviewed the nine system administrators to identify the products used to
                encrypt sensitive data stored on laptop computers; the process to set encryption on
                sensitive files; how the security policies are communicated to employees; and the
                local policy on portable electronic media, with a focus on flash drives.6
             2. Interviewed the 100 employees assigned to the sample of 100 computers to
                determine the employees’ awareness and knowledge of the encryption process;
                how sensitive information was encrypted on the laptop computers; and whether
                the employees used self-purchased or Federal Government-issued flash drives
                and, if they did, asked why and what information was stored on the flash drives
                and whether the flash drives were encrypted.
             3. Determined whether taxpayer information stored on laptop computers was
                unencrypted by analyzing the hard drives on the 100 laptop computers.
             4. Evaluated the controls over the protection of the boot process7 on the sample of
                the 100 laptop computers.




3
  Area Offices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
4
  The Mission Assurance and Security Services organization supports the vital mission of the IRS by assuring the
security and resilience of critical Agency functions and business processes.
5
  The Modernization and Information Technology Services organization is responsible for providing information
technology support and services for the IRS by building and maintaining information systems that will help the IRS
achieve its mission, objectives, and business vision.
6
  A flash drive is an external data storage device that plugs into the computer and emulates a small disk drive. It
allows data to be easily transferred from one computer to another.
7
  The boot process represents the computer’s internal process of starting when powered up. This process involves
the execution of preset instructions located on the computer’s hard drive, including startup of security features of the
computer such as password protection.
                                                                                                              Page 22
                     The Internal Revenue Service Is Not Adequately Protecting
                      Taxpayer Data on Laptop Computers and Other Portable
                                     Electronic Media Devices



III.    Determined the effectiveness of procedures and controls implemented to protect sensitive
        data on media such as backup media when data are stored at non-IRS offsite facilities.
        The non-IRS offsite facilities were located fewer than 40 miles from the selected Area
        Offices.
        A. Assessed the security and encryption placed on backup media that are to be stored at
           non-IRS offsite facilities.
        B. Assessed the security of the method of transportation used to ship backup media to
           non-IRS offsite storage facilities.
        C. Assessed the adequacy of the physical security controls where the media were stored.
        D. Reconciled the list of backup media to assess the accuracy and completeness of the
           written inventory.
        E. Validated the list of IRS employees authorized to access the non-IRS offsite storage
           facilities and view tapes.
IV.     Determined the effectiveness of actions taken by the IRS to cleanse sensitive data
        from electronic media that are to be reused or discarded at the Campuses8 in
        Fresno, California; Atlanta, Georgia; Covington, Kentucky; and Ogden, Utah.
        A. Assessed the procedures used to process laptop computers for disposal and
           determined whether these procedures meet IRS guidelines.
            1. Interviewed responsible staff members and obtained records of actions taken to
               cleanse sensitive data that might reside on the media before disposal of the
               equipment, including backup tapes.
            2. Obtained a list of the various types of equipment that are cleansed and a
               description of all the cleansing techniques used and when each type is applicable.
            3. Identified where equipment awaiting disposal is stored and the final destination of
               the disposed equipment.
            4. Identified actions taken to remove items from the Information Technology Asset
               Management Systems, the official IRS computer inventory recordkeeping system.
        B. Assessed the adherence to disposal procedures and noted any variation or
           noncompliance. We also verified whether equipment had been cleansed of all
           readable data.



8
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 23
                  The Internal Revenue Service Is Not Adequately Protecting
                   Taxpayer Data on Laptop Computers and Other Portable
                                  Electronic Media Devices



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Joseph Cooney, Acting Audit Manager
Midori Ohno, Lead Auditor
Richard Borst, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Jackie Nguyen, Senior Auditor




                                                                                     Page 24
                 The Internal Revenue Service Is Not Adequately Protecting
                  Taxpayer Data on Laptop Computers and Other Portable
                                 Electronic Media Devices



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                       Page 25
                   The Internal Revenue Service Is Not Adequately Protecting
                    Taxpayer Data on Laptop Computers and Other Portable
                                   Electronic Media Devices



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 480 individuals affected (see page 7).

Methodology Used to Measure the Reported Benefit:
Our objective was to determine whether the IRS is adequately protecting sensitive data on laptop
computers. We found that employees reported 387 incidents from January 2, 2003, to
June 13, 2006, involving the loss or theft of computer equipment and/or sensitive data. Based on
the available information for the 387 incidents, we determined at least 24 of the incidents could
have been prevented if employees had followed IRS policies and procedures. The
24 incidents involved personally identifiable information for 480 individuals. The loss of these
records, which consisted of taxpayer and employee information, also could have been prevented
had the incidents not occurred.
Recommendations 3 through 5 should increase awareness and reinforce employee
responsibilities on computer security and should decrease the number of incidents that can be
prevented by adhering to IRS policies and procedures.




                                                                                          Page 26
                      The Internal Revenue Service Is Not Adequately Protecting
                       Taxpayer Data on Laptop Computers and Other Portable
                                      Electronic Media Devices



                                                                                                  Appendix V

       Office of Management and Budget Memoranda

The Office of Management and Budget1 has issued several memoranda addressing data
protection in Federal Government bureaus and agencies.
¾ M-06-15, Safeguarding Personally Identifiable Information (May 22, 2006). This
  memorandum reemphasizes the responsibilities of Federal Government agencies regarding
  laws and policies for safeguarding sensitive personally identifiable information. The
  memorandum also requires agencies to remind employees of their responsibilities within
  30 calendar days of the issuance of this memorandum.
¾ M-06-16, Protection of Sensitive Agency Information (June 23, 2006). This memorandum
  recommends that four actions to protect sensitive agency data be taken by all agencies:
  (1) encrypt all data on mobile devices, (2) allow remote access only with 2 separate
  mechanisms of authentication, (3) use a 30-minute inactivity timeout function for remote
  access, and (4) log all computer data extracts from databases and ensure data are erased after
  90 calendar days unless the data are still needed. The memorandum also provides a checklist
  for protecting remote information for agencies to complete within 45 calendar days of the
  issuance of this memorandum.
¾ M-06-19, Reporting Incidents Involving Personally Identifiable Information and
  Incorporating the Cost for Security in Agency Information Technology Investments
  (July 12, 2006). This memorandum requires that all incidents involving personally
  identifiable information be reported to the United States Computer Emergency Readiness
  Team2 within 1 hour of discovery.
¾ M-06-20, FY 2006 Reporting Instructions for the Federal Information Security Management
  Act3 and Agency Privacy Management (July 17, 2006). This memorandum provides
  additional instructions and requires additional information for the 2006 Act submission.


1
  The Office of Management and Budget ensures agencies’ reports, rules, testimony, and proposed legislation are
consistent with the President’s budget and administration policies. The Office of Management and Budget’s role is
to help improve administrative management, to develop better performance measures and coordinating mechanisms,
and to reduce any unnecessary burdens on the public.
2
  The United States Computer Emergency Readiness Team is a partnership between the Department of Homeland
Security and the public and private sectors. Established in 2003 to protect the nation’s Internet infrastructure, the
Team coordinates defense against and response to cyber attacks across the nation.
3
  This Act is part of the E Government Act of 2002, Pub. L. No. 107-347, Title III, Section 301 (2002). The Federal
Information Security Management Act includes protecting information and systems from unauthorized access, use,
disclosure, or modification, including controls for disclosure and confidentiality to protect personal privacy.
                                                                                                           Page 27
     The Internal Revenue Service Is Not Adequately Protecting
      Taxpayer Data on Laptop Computers and Other Portable
                     Electronic Media Devices



                                                    Appendix VI


Management’s Response to the Draft Report




                                                           Page 28
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 29
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 30
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 31
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 32
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 33
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 34
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 35
The Internal Revenue Service Is Not Adequately Protecting
 Taxpayer Data on Laptop Computers and Other Portable
                Electronic Media Devices




                                                      Page 36
